                            CLOSEOUT FOR M-94040012
       On A ~ r i l 6 .1994. an allegation of misconduct in science was brought to OIG's attention




       OIG reviewed the subject's proposal, the complainant's paper, the complainant's remarks,
and other relevant scientific papers. OIG contacted the complainant for additional information.

        Specifically, the complainant alleged that the subject committed intellectual theft when
he used one word from the complainant's original test title in his proposal. without proper
citation. OIG determined that the single word used by the subject in his proposal was employed
as a general descriptive term and did not refer to the complainant's water test. OIG also
determined that within the field of study represented by the subject's proposal there were a
limited number of terms that could be used to describe the motion of the water. OIG concluded
that the use of this particular word did not constitute theft of an idea.

       OIG compared the complainant's published description of his water test with the subject's
suggested approach in his proposal. We determined that, although the two ideas were in one
respect similar, they were significantly different in overall design and purpose. The
complainant's test was to measure a specific parameter; the subject's proposed approach was to
mathematically derive similar parameters that would match observed results. Information
provided by the complainant confirmed that the subject's niathematical model presented in the
proposal was different from the complainant's published test.

        OIG, concluded that there was no substance to the allegation that the subject had
plagiarized the complainant's idea in his proposal. This inquiry.was closed and no further action
will be taken on this case.

cc:    Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                          Page 1 of I
